OPPORTUNITIES TO FREE UP UNNEEDED
 FHWA FUNDS FOR USE IN HURRICANE
        RECOVERY EFFORTS
       Federal Highway Administration

        Report Number: MH-2007-037
         Date Issued: March 6, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Opportunities to Free Up Unneeded                  Date:    March 6, 2007
           FHWA Funds for Use in Hurricane Recovery Efforts
           Report No. MH-2007-037

  From:    Kurt W. Hyde                                            Reply to
                                                                   Attn. of:   JA-40
           Assistant Inspector General
            for Surface and Maritime Programs

    To:    Federal Highway Administrator


           This report presents the results of our audit to identify funds earmarked by
           Congress that could be freed up and used for hurricane recovery efforts. In
           August and September of 2005, Hurricanes Katrina and Rita struck the Gulf States
           of Alabama, Florida, Louisiana, Mississippi, and Texas, causing loss of life,
           injury, and extensive physical damage. The recovery efforts, including repairs to
           severely damaged highways and bridges, will cost billions of dollars to complete.

           Funds earmarked by Congress to specific highway projects remain available until
           expended by states or localities unless Congress rescinds the funds. Further, the
           funds cannot be applied to other projects without express congressional approval.
           In light of the need to replace damaged or destroyed transportation infrastructure,
           it is important to identify any Federal funds that could be freed up and redirected
           to such efforts.

           Our audit objective was to assist the Federal Highway Administration (FHWA)
           and the hurricane-affected states identify earmarked funds that are dedicated to
           congressionally directed projects but are no longer needed for their original
           purposes. We limited our audit to all earmarked projects in the five Gulf States, a
           total of 203, that were designated in legislation on or before October 23, 2000, and
           had unobligated or unexpended funds remaining as of December 31, 2005. The
           practice of earmarking has received substantial attention recently. However, it
           was not within the scope of our audit to second guess or to otherwise assess the
           justification of any particular congressionally earmarked funds.

           We consulted with state, local, and Federal highway officials to determine whether
           certain funds were no longer needed and could be redirected. We conducted this
                                                                                                              2


performance audit in accordance with Generally Accepted Government Auditing
Standards prescribed by the Comptroller General of the United States, and we
performed such tests as we considered necessary to detect fraud, waste, and abuse.
A detailed description of our scope and methodology is in Exhibit A.

RESULTS IN BRIEF
Using data provided by FHWA, we identified 203 earmarked highway projects
authorized on or before October 23, 2000, in the five Gulf States affected by
Hurricanes Katrina and Rita (Alabama, Florida, Louisiana, Mississippi, and
Texas). Of those 203 projects, 19 projects retain approximately $10.7 million 1 in
unneeded earmarked funds that could be put to better use by redirecting the funds
to hurricane recovery efforts (see Exhibit B).

According to officials in FHWA Division Offices and state departments of
transportation, 17 of the 19 projects have been completed but excess funds remain.
For example, more than $500,000 remains from a $2.3 million earmark for a
Florida interchange project that was completed in 2005. In addition, two other
projects will not proceed at this time. For example, a $205,000 earmark to help
build an expressway across New Orleans’ Ninth Ward is not needed because the
area was devastated by Hurricane Katrina. Congressional action is required to
withdraw or redirect these unneeded funds.

Further, during our audit we identified two areas in which FHWA could easily
assist states in redirecting other idle earmarked funds without congressional action
and help Congress identify earmarked highway funds that could be freed up for
other purposes. First, section 1603 of the 2005 Safe, Accountable, Flexible,
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU) granted
FHWA the authority to allow states to redirect excess or inactive funds for
earmarked projects designated in legislation before fiscal year (FY) 1991 without
congressional action. However, more than a year after SAFETEA-LU was
enacted, FHWA has yet to issue guidance to states on how to implement this
provision. At the time of our audit, FHWA was still preparing the guidance.
Redirecting the excess or inactive funds would allow states to use the funds for
other transportation projects within the states. For example, 3 of the 19 earmarks
that we identified in our audit as having unneeded funds appear to be eligible for
release without congressional approval under section 1603. Consequently, it is
imperative that FHWA move quickly to provide this guidance to states so that they
can free up unneeded funds and use them for other pressing highway projects.


1
    Our estimate of $10.7 million is based on earmarked funds remaining on these 19 projects as of May 11, 2006.
    According to FHWA, these projects may undergo final closeout procedures, and the total funds available for
    redirection may be adjusted.
                                                                                                                       3


Second, FHWA could assist in freeing up idle funds by providing Congress with a
list of unneeded highway earmarks on a regular basis. In response to a 2004
recommendation of the U.S. Government Accountability Office (GAO), FHWA
compiled such a list in 2005 in coordination with its Division Offices and state
departments of transportation. However, it has not transmitted the list to
Congress. It would be useful if FHWA were to compile such a list regularly, as
Congress would benefit as it seeks to identify Federal dollars that could be applied
to other pressing needs.

To address these issues, we are recommending that FHWA:

• Coordinate with the five Gulf State departments of transportation to promptly
  identify how the earmarked funds in the 19 projects we identified in our audit
  could best be redirected for use in hurricane recovery efforts. FHWA should
  also formally alert Congress that approximately $10.7 million in earmarked
  funds are available for redirection to hurricane recovery efforts within these
  same states. If necessary, FHWA should also coordinate with Congress
  regarding the legislative requirements of each earmark in order to identify the
  best method for redirecting these funds.

• Promptly issue guidance on Section 1603 of SAFETEA-LU to allow the states
  to redirect, without congressional action, certain eligible, unneeded highway
  earmarked funds to other transportation projects in their states.

• Continue to regularly compile a list of earmarked highway funds that states no
  longer need and transmit that list to Congress for legislative consideration.

Our recommendations and a summary of FHWA’s comments and the OIG
response can be found beginning on page 9 of this report.

BACKGROUND
An earmark is a congressional directive in legislation to spend a specific amount
of money (or up to a maximum level) for a specific project in a specific location (a
state or locality). Many highway earmarks originate in the Department of
Transportation’s (DOT) multi-year surface transportation program reauthorization
bills, but others may have their inception in appropriations bills or accompanying
conference reports. 2 In highway legislation, earmarked projects are usually
designated as “demonstration projects” or “high priority projects.” The term
“earmark” does not usually appear in legislation, even though it is commonly
used.

2
    Explanatory statements within conference reports do not have the force of law, but they explain the intent of the bill
    language for the guidance of executive agencies.
                                                                                                        4


Unlike most Federal-aid funds that are available for obligation for four fiscal
years, congressionally directed earmarked funds generally remain available until
expended and can be used only for the specifically designated project.
Congressional action is required to release any unneeded earmarked funds—
through either a rescission (withdrawal of funds) or a redirection (a change in the
purpose of funds). The legislative nature of each earmark may differ, which will
affect how Congress can act on unneeded earmarked funds. For example, most
transportation earmarks are funded by the Federal Highway Trust Fund, but some
are funded from other sources such as the Federal Government’s General Fund. In
addition, some earmarked projects are subject to obligation limitations.
Accordingly, FHWA and Congress will have to determine if any unneeded
earmarked funds are limited as a result.

In the past 25 years, the number and total amount of congressional earmarks for
highway projects designated in the last five transportation reauthorization bills
have risen dramatically. The number increased from 10 “demonstration projects”
in the Surface Transportation Assistance Act of 1982 (STAA) to more than 5,500
“high priority projects” and “transportation improvement projects” in SAFETEA-
LU, which was enacted in 2005. The total amount of highway earmarks also
rose—from $410 million, or less than 1 percent of all Title I Federal-aid highway
funds authorized in 1983, to $17.4 billion, 3 or nearly 9 percent of all highway
funds authorized in 2005.

At the same time that the number and total amount of highway earmarks rose, the
average amount earmarked for each project decreased. As Figure 1 shows,
projects authorized in 1983 by STAA received an average of $41 million each.
This amount fell in the 1987 and 1991 reauthorization bills to between $9 million
and $12 million. In the 1998 Transportation Equity Act for the 21st Century
(TEA-21), the average amount for each project dropped to $5 million, and in
SAFETEA-LU, with more than 5,500 projects, the average earmark fell to about
$3 million.




3
    The dollar figures identified for each reauthorization bill have not been adjusted for inflation.
                                                                                                                                     5


    Figure 1. Average Amount per Earmark Declines as Total
    Number of Earmarks Increases, by Authorizing Legislation


             Millions
                                            45                                                             6,000

                                            40
               Average Amount per Earmark                                                                  5,000
                                            35




                                                                                                                   No. of Earmarks
                                            30                                                             4,000

                                            25
                                                                                                           3,000
                                            20

                                            15                                                             2,000

                                            10
                                                                                                           1,000
                                            5

                                            0                                                              0
                                                   STAA     STURAA       ISTEA     TEA-21 SAFETEA-
                                                  (1983)     (1987)     (1991)     (1998) LU (2005)

                                                 Average Amount per Earmark           Total Number of Earmarks

                                                     Source: Authorizing legislation and FHWA documents.


Additional information on the highway earmark trends is available in Exhibit C.

FINDINGS

19 Projects With About $10.7 Million in Idle Earmarked Highway
Funds Could be Redirected
Using data provided by FHWA, we initially developed a list of 203 earmarked
highway projects in the five states that were authorized on or before October 23,
2000. Of the 203 projects, we identified 19 earmarks with approximately
$10.7 million in unneeded funds in the five Gulf States affected by Hurricanes
Rita and Katrina. Key state transportation officials from the five states agreed that
those funds were no longer needed for their original purpose and could be released
and redirected toward hurricane recovery efforts in their respective states. FHWA
officials concurred with their decisions. (See Exhibit B for a list and description
of the 19 projects.)

Of the 19 earmarks with unneeded funds, 3 are located in Alabama, 7 in Florida,
6 in Louisiana, 1 in Mississippi, and 2 in Texas. Although about half of the
earmarks were enacted in the 1998 reauthorization bill (TEA-21), six date back to
                                                                                    6


the 1987 and 1991 reauthorization bills and the remaining earmarks were
authorized in various highway appropriations bills from 1990 through 2001.

State transportation officials indicated that 17 of the 19 projects in our review have
been completed but excess funds remain because the project costs were less than
expected. For example, a $2.3 million earmark that Florida received in 1991 to
help construct an interchange in Sarasota had approximately $517,000 in excess
funds when it was completed in 2005. In Texas, a $1.4 million earmark
authorized in 1998 to construct a road extension in Nacogdoches had about
$16,000 remaining when it was completed in 2003. Finally, a $10 million earmark
for improvements on U.S. 84 in Franklin and Lincoln Counties in Mississippi was
completed in June 2006, leaving about $848,000 in excess funds.

State officials told us that 2 of the 19 projects—1 in Alabama and 1 in
Louisiana—are not moving ahead because of insufficient funding or because they
were overcome by events. Specifically, Alabama officials decided to release the
full amount of a $5 million earmark received in 2000 to relocate railway tracks
and improve highway rail crossings in two towns because the rail company and
local towns were not able to come up with the unusually high amount of matching
funds ($3.7 million) required to begin the project. In another example, Louisiana
officials also agreed that a 1998 earmark for $205,000 to help build a $600 million
expressway across the Ninth Ward in New Orleans was no longer needed because
the project was cancelled after Hurricane Katrina inflicted heavy damage in the
area.

In Louisiana, state officials originally agreed to release approximately $5 million
from a 1998 earmark because a feasibility study showed that the cost (about
$18 million) to connect two highways through an existing 4-lane tunnel under the
New Orleans International Airport far exceeded the available earmarked funds.
Moreover, the highways were already linked by a nearby interchange. Louisiana
transportation officials recently decided that these funds were still needed after all
to complete a project similar to the one described in the legislation that provided
the earmark. FHWA Division staff told us they have reviewed the proposed
project and determined it is a proper use of the earmarked funds and that the
project has just been added to the state’s transportation improvement plan. These
funds are no longer available for redirection. Accordingly, our estimate of funds
available for redirection was revised from about $15.7 million (20 projects) to
about $10.7 million (19 projects).

According to FHWA and state officials, earmarked funds have remained idle for
several years because of the absence of a process within states to identify
unneeded earmarked funds and the time and effort required to get funds released
through legislative action. For example, state transportation officials in Louisiana
and Texas said they have no procedures to systematically identify projects that
                                                                                                                            7


have been completed but still have earmarked funds remaining. Currently,
earmarked funds that are no longer needed have to be rescinded or redirected for
other purposes through congressional action. This contrasts with unneeded funds
associated with regular Federal-aid grants, which a state can release by
deobligating 4 them and making them available for active transportation projects
elsewhere within that state.

FHWA Can Take Additional Steps to Help Congress and States Free
Up Idle Earmarked Highway Funds

We have identified two areas in which FHWA could easily take action to assist
states in redirecting unneeded earmarked funds without congressional action and
help Congress identify idle earmarked funds that could be freed up for other
purposes. First, a provision of SAFETEA-LU granted the Secretary of
Transportation the authority to allow states to redirect highway earmarks
authorized before FY 1991 without congressional action, but more than a year
after the law was enacted, FHWA has yet to issue guidance to states on how to
implement this provision. Second, in response to a 2004 recommendation made
by GAO, FHWA in 2005 compiled a list of earmarked funds that states no longer
needed, but it has not made this list available to Congress.

Section 1603 of SAFETEA-LU allows the states to request FHWA to redirect
excess or inactive earmarked funds designated in legislation before FY 1991 to
any project eligible under the Surface Transportation Program. FHWA, however,
must issue guidance on how this provision will be implemented before states can
make use of it. 5 Section 1603 also requires the states to certify that any inactive
funds they want to keep are still necessary for their original purpose. The
certification must include a project status report and an estimated date of
completion.

Although congressional action will be required to withdraw or redirect the
unneeded balances for most of the 19 earmarked projects in our audit, 3 projects,
with a combined balance of about $190,000, appear to fall under Section 1603 of
SAFETEA-LU. One example is an $11 million earmark that Florida received in
1987 to construct an interchange on Interstate 4 and State Route 46 in Sanford.
The project now has $165,649 in excess funds that could be redirected easily when
FHWA issues guidance to the states.

4
    When the Federal Government obligates funds, it makes a legal commitment to pay or reimburse the states for the
    Federal share of a project’s eligible costs. Deobligation of funds removes the legal commitment to the state. For
    instance, if the actual cost of a project turns out to be less than the estimated cost for that project, states can request
    that FHWA deobligate funds that are not needed for payment and make them available for new projects.
5
     Specifically, the new provision allows the Secretary of Transportation, at the request of a state, to obligate or
    deobligate and reobligate any excess or inactive funds authorized in a public law or accompanying report for a
    specific transportation project or activity that was allocated before FY 1991. Projects authorized after FY 1991 do
    not fall under this provision.
                                                                                                                8


According to FHWA, if Section 1603 is implemented promptly, funds remaining
from most old highway earmarks (pre-1991) could be redirected to projects
eligible under the Surface Transportation Program. Yet, FHWA officials, after
nearly 18 months, are still in the process of preparing guidance to assist the states
in determining which projects are eligible under Section 1603. The guidance must
describe what states must do to redirect excess or unneeded funds to other
transportation projects or to certify that funds are still necessary for their original
purpose, as called for in this provision. FHWA officials indicated that they hoped
to have the guidance in place by February 28, 2007 and on March 5, 2007 stated
that issuance was imminent. It is imperative that FHWA provide this guidance to
states as soon as possible because, according to SAFETEA-LU, funds that the
states choose to redirect will be available for obligation only until the end of FY
2008.

In conjunction with this provision of SAFETEA-LU legislation, FHWA is
required to submit an annual report to Congress on actions taken under Section
1603. The first report was due not later than 1 year after the passage of
SAFETEA-LU, which was signed into law on August 10, 2005. FHWA officials
are finalizing the first report but according to officials, the report will not contain
any information on states’ activities regarding Section 1603 because FHWA has
not finalized and issued the guidance to the states.

A second area where FHWA could assist in freeing up idle funds is to provide
Congress with a list of unneeded highway earmarks. FHWA compiled such a list
in 2005 in response to a GAO recommendation and plans to compile another one.
However, FHWA has not transmitted the 2005 list to Congress. GAO has issued
three reports that identified unneeded highway funds associated with
congressional earmarks authorized in legislation enacted between 1976 and 2000.6
In its 2004 report, GAO recommended that FHWA regularly compile a list of
highway projects that have unneeded, unobligated balances that were available for
rescission. GAO concluded that submission of this information to Congress could
result in more timely rescissions of unobligated balances that the states no longer
need, freeing up funds for other purposes. As a result of that recommendation,
FHWA officials compiled its first list of earmarked projects with funds that the
states indicated they no longer needed in 2005. Although FHWA agreed to
compile a list annually, FHWA did not compile a second list in FY 2006 although
it does plan to compile one this year.

6
    U.S. General Accounting Office, “Highway Projects: Extent of Unobligated Balances for Demonstration Projects,”
    (GAO-01-985R, Aug. 17, 2001); U.S. General Accounting Office, “Highway Projects: Extent of Unobligated
    Balances for Demonstration Projects as of March 31, 2002” (GAO-02-721R, June 5, 2002); and U.S. Government
    Accountability Office, “Highway Projects—Extent of Unobligated Balances for Demonstration Projects as of April
    30, 2004,” (GAO-04-935R, Aug. 18, 2004). The agency changed its name to U.S. Government Accountability
    Office in July 2004.
                                                                                 9


In March 2006, GAO again requested information from FHWA on unneeded
earmarked funds. FHWA used the list of projects it had prepared in 2005 to help
prepare its response, in which it estimated that $12.2 million was available
nationwide for rescission. According to FHWA officials, they plan to compile
another list of earmarked projects with unneeded funds in the near future, but they
do not plan to forward the list directly to Congress. Instead, they anticipate that
FHWA will use the list during its annual budget preparation process. FHWA is to
be commended for compiling this list, and it should continue to do so regularly to
identify unneeded earmarked funds. Nevertheless, the list is of minimal use unless
it is provided to Congress so that appropriate legislative action can be taken. The
list would be beneficial to Congress as it seeks to identify Federal dollars that
could be applied to other pressing needs.

RECOMMENDATIONS
We recommend that FHWA:

1. Coordinate with the five Gulf State departments of transportation to promptly
   identify how the earmarked funds in the 19 projects we identified in our audit
   could best be redirected for use on hurricane recovery efforts. FHWA should
   also formally alert Congress that approximately $10.7 million in earmarked
   funds are available for redirection to hurricane recovery efforts within these
   same states. If necessary, FHWA should also coordinate with Congress
   regarding the legislative requirements of each earmark in order to identify the
   best method for redirecting these funds.

2. Promptly issue guidance on Section 1603 of SAFETEA-LU to allow the states
   to redirect, without congressional action, certain eligible, unneeded highway
   earmarked funds to other transportation projects in their states.

3. Continue to regularly compile a list of earmarked highway funds that states no
   longer need and transmit that list to Congress for legislative consideration.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to the FHWA Administrator on December 15,
2006 for comment. On February 9, 2007, FHWA provided us with its formal
response, which is contained in its entirety in the Appendix. Although FHWA
generally concurred with our recommendations, in its response to recommendation
1, it stated that it should coordinate with the five Gulf States before notifying
Congress of available funds. Also, from its response, it is unclear how FHWA
will implement recommendation 3. Therefore, we request that FHWA provide us
                                                                                 10


within 30 calendar days, additional information on how it will meet the intent of
recommendations 1 and 3.

Recommendation 1: FHWA partially concurred and stated it will coordinate
with the five Gulf State departments of transportation by February 28, 2007 to
identify how earmarked funds identified in this audit could best be directed to
hurricane recovery efforts. However, FHWA deferred a decision on further action
to formally alert Congress that approximately $10.7 million in earmarked funds
are available for redirection until after FHWA completes its coordination with the
five Gulf States.

OIG Response: Although FHWA didn’t complete the action by the February 28,
2007 milestone, its planned action to complete coordination with the five Gulf
States meets with the intent of this portion of our recommendation. However, it is
unclear whether FHWA intends to formally alert Congress that approximately
$10.7 million is available for redirection to hurricane recovery efforts. As stated
in our report, most of the unneeded earmarked funds identified in our audit cannot
be redirected to hurricane recovery efforts without legislative action by Congress.
In addition, to identify projects with funds available for redirection, we conferred
with appropriate state and local transportation officials and FHWA Divisions to
reach a consensus that these funds were available for redirection. Furthermore, 17
of the 19 projects we identified as having unneeded earmarked funds were
completed, some years ago. Accordingly, we request that FHWA reconsider its
plan of action and alert Congress that about $10.7 million in earmarked funds is
available for redirection to hurricane recovery efforts within the five Gulf States.

Recommendation 2: FHWA concurred with this recommendation and stated that
the target date for issuing guidance to state departments of transportation on
Section 1603 of SAFETEA-LU was February 28, 2007.

OIG Response:        FHWA’s planned action meets the intent of our
recommendation. Although the guidance was not issued by February 28, 2007,
FHWA indicated that issuance was imminent.

Recommendation 3: FHWA agreed with this recommendation and stated that it
would monitor the use of earmarked highway funds that states no longer need and
periodically alert Congress that certain funds are no longer needed for their
statutorily intended purpose.

OIG Response:       FHWA’s response generally meets the intent of our
recommendation. However, FHWA’s use of the term “periodic” is unclear. The
intent of our recommendation was that FHWA provide an annual list to Congress
of earmarked highway funds states no longer need. In response to a GAO request,
FHWA already has agreed to compile an annual list. We agree with GAO’s report
                                                                                 11


that the value of such a list is in providing Congress with information that will
allow it to make more timely rescissions of funds that states no longer need.
Therefore, we request FHWA to reconsider its response and clarify how often it
intends to alert Congress that certain unneeded funds are available.

ACTIONS REQUIRED
In accordance with DOT Order 8000.1C, we request that FHWA provide us with
additional information, within 30 calendar days from the date of this final report,
on how it will meet the intent of recommendations 1 and 3. FHWA’s response
should identify FHWA’s plan of action and set a timetable for alerting Congress
that about $10.7 million in earmarked funds is available for redirection to
hurricane recovery efforts in the five Gulf States. The response should also clarify
how often FHWA intends to alert Congress that certain unneeded funds are
available.

We appreciate the courtesies and cooperation of Federal Highway Administration
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-5630 or Tom Yatsco, Program Director, at
(202) 366-1302.

                                         #

cc:   Assistant Secretary for Budget and Programs and
        Chief Financial Officer
      Martin Gertel, OST Audit Liaison
      Frederick G. Wright, Jr., FHWA Executive Director
      King W. Gee, FHWA Associate Administrator for Infrastructure
      Dwight A. Horne, FHWA Director Office of Program Administration
      Albert T. Park, FHWA Chief Financial Officer
                                                                                                                 12



EXHIBIT A. SCOPE AND METHODOLOGY
To identify earmarked funds, in five Gulf States affected by Hurricanes Katrina
and Rita, that are no longer needed for their original purpose and to determine the
amount of funds that could be freed up and redirected with congressional
approval, we reviewed laws, regulations, reports, authorizing legislation, and
annual appropriations acts. We also examined FHWA’s processes, guidance,
fiscal management data, and other relevant information to get an understanding of
Federal and state requirements for the use of earmarked funds.

We conducted audit work at FHWA Headquarters and Division Offices and at
state departments of transportation in the five Gulf States of Alabama, Florida,
Louisiana, Mississippi, and Texas. We interviewed FHWA and state officials on
issues related to congressional earmarking, state and Federal roles and
responsibilities, requirements, and compliance.            We also interviewed
representatives of local area metropolitan planning organizations.

Our audit focused on unobligated and unexpended balances for earmarked
transportation projects in the five Gulf States that were designated in legislation
enacted on or before October 23, 2000, the date when the FY 2001 appropriations
bill (Pub. L. No. 106-346) was signed into law. We requested that FHWA provide
us with a report from its Fiscal Management Information System (FMIS) listing all
demonstration and high priority projects for the five states meeting these criteria.
Specific data fields included Demo ID number, 7 description, program code, public
law, Federal funds allocated, obligated amount, unobligated amount, total
expenditures, unexpended balance, and dates of last obligation and expenditure as
of September 30, 2005. We excluded earmarked projects that had no unobligated
and unexpended balances, which reduced the number of projects in our universe
from 278 to 205. In addition, we excluded earmarked projects that previously had
been rescinded but that were still listed in FMIS as being active. Our final
universe was 203 projects. We reviewed all 203 projects. These 203 projects
received a total of $2.2 billion in allocated earmarked funds that were within the
scope of our review. As of December 31, 2005, about $1.8 billion had been
obligated by the states.

Our examination of 203 projects identified 19 projects with approximately
$10.7 million in excess earmarked funds that could be redirected to hurricane
recovery efforts in the Gulf States. We also identified three additional projects
that had a total of less that $10 remaining. Because of materiality, these three
projects are not identified in this report; however, we have provided information
regarding them to FHWA. During our audit, FHWA and Gulf State officials

7
    FHWA assigns a Demo ID number to certain earmarked projects in order to identify the funds as being designated by
    Congress for use on a specific project, and track the obligation and expenditure of those funds in FMIS.


Exhibit A. Scope and Methodology
                                                                                     13


provided evidence that the remaining 181 of 203 projects were proceeding and the
earmarked funds would be required to complete these projects. Therefore, our
report does not address those projects.

Most of the earmarked highway projects within the scope of our audit originated
in two reauthorization bills enacted in the 1990s (see Table 1 below), the
Intermodal Surface Transportation Efficiency Act of 1991 and TEA-21. Another
10 projects were initially earmarked in two reauthorization bills passed in the
1980s, STAA and the Surface Transportation and Uniform Relocation Assistance
Act of 1987. The remaining 22 projects originated in annual or supplemental
transportation appropriations bills. Although Table 1 reflects only the initial
earmark provided for a highway project, it is important to note that some of the
203 projects included in our audit sample received additional earmarked funds in
subsequent legislation.

  Table 1. Number of Demonstration and High Priority Projects
  Included in Our Audit, by Initial Authorizing or Appropriating
                           Legislation
                                                   Public     Date         No. of
  Initial Legislation                               Law      Enacted      Projects
  Surface Transportation Assistance Act of
  1982 (STAA)                                       97-424     1/6/1983      2
  Department of Transportation and Related
  Agencies Appropriations Act, 1987                 99-591   10/30/1986      1
  Surface Transportation and Uniform
  Relocation Assistance Act of 1987
  (STURAA)                                          100-17     4/2/1987      8
  Department of Transportation and Related
  Agencies Appropriations Act, 1989                100-457    9/30/1988      2
  Department of Transportation and Related
  Agencies Appropriations Act, 1991                101-516    11/5/1990      6
  Intermodal Surface Transportation
  Efficiency Act of 1991 (ISTEA)                   102-240   12/18/1991     36
  Making supplemental appropriations,
  transfers, and rescissions for the fiscal year
  ending September 30, 1992, and for other
  purposes                                         102-368    9/23/1992      5
  Department of Transportation and Related
  Agencies Appropriations Act, 1993                102-388    10/6/1992      1
  Department of Transportation and Related
  Agencies Appropriations Act, 1994                103-122   10/27/1993      1
  Department of Transportation and Related
  Agencies Appropriations Act, 1995                103-331    9/30/1994      2
  Transportation Equity Act for the 21st
  Century, 1998                                    105-178     6/9/1998     135
  Department of Transportation and Related
  Agencies Appropriations Act, 2001                106-346   10/23/2000      4
    Total                                                                   203



Exhibit A. Scope and Methodology
                                                                                                           14


We did not review highway earmarks from any appropriations bills enacted after
FY 2000 nor from SAFETEA-LU, which provides for highway, transit, and safety
programs through 2009.

Based on the findings of a prior Office of Inspector General (OIG) audit, 8 we did
not conduct reliability testing for FMIS. The prior audit concluded that although
significant general and security weaknesses exist in FMIS, the accuracy of the data
could be substantiated by comparing FMIS data with that maintained by the states.
During our site visits, we verified the data FHWA provided to us with data its
Divisions maintained and with project records the states kept. The approximate
$10.7 million that was identified as unneeded funds available for redirection was
based upon the FMIS data and verified by the states as of December 31, 2005. We
updated the figures on May 11, 2006, using FMIS records.

We examined legislation to verify legislative requirements for earmarks within the
scope of our review and to gain general knowledge about certain transportation
earmarks identified in SAFETEA-LU. We considered the review criteria, states’
comments, and the number of years a project had Federal funds remaining
unobligated or unexpended on each project in order to make a preliminary
assessment of whether these funds were still needed by the states or were available
for redirection.

We conducted this performance audit from November 2005 through December
2006 in accordance with Generally Accepted Government Auditing Standards
prescribed by the Comptroller General of the United States, and we performed
such tests as we considered necessary to detect fraud, waste, and abuse.




8
    OIG Report FI-2004-039, “Inactive Obligations, Federal Highway Administration,” March 31, 2004. OIG reports
    can be found on our website: www.oig.dot.gov.


Exhibit A. Scope and Methodology
                                                                                                                  15



        EXHIBIT B. 19 PROJECTS WITH UNNEEDED FUNDS THAT ARE
        AVAILABLE FOR REDIRECTION

                                                                                                                   Amount
                                                         Public Law, Section,                     Reason for      Eligible for
Demo                                                     Related Report, and    Total Amount      Releasing      Section 1603,
  ID       Project Description       Total Allocated      Date of Enactment      to Release         Funds        SAFETEA-LU
AL004   Alabama Highway Bypass          $34,172,889    Pub. L. No. 102-143               $218   Completed                     $0
        Demo: relocate U.S. 78                         (1991)                                   with excess
        Jasper Bypass                                                                           funds
                                                       Pub. L. No. 102-388           $99,934
                                                       (1992)
AL026   Construct East Foley             $7,175,697    Pub. L. No. 105-178          $175,778    Completed                    $0
        Corridor Project from                          (1998) Section 1602                      but additional
        Baldwin County Highway                         Numbers 857, 1501,                       expenses
        20 to State Highway 59 in                      1833                                     may be
        Alabama                                                                                 identified

AL043   Capital costs associated         $4,989,000    Pub. L. No. 106-346         $4,989,000   Project will                 $0
        with track relocation,                         (2000) Section 375                       not proceed
        construction and rehab                                                                  because
        highway-rail separation                                                                 matching
        activities, including ROW                                                               funds are not
        acquisition and utility                                                                 available
        relocation, and signal
        improvements in Muscle
        Shoals, Tuscumbia, and
        Sheffield, Alabama

FL004   Sanford: SR 46/I-4              $11,169,197    Pub. L. No. 100-017          $165,649    Completed              $165,649
        interchange                                    (1987) Section 149                       with excess
                                                       (A)(12)                                  funds
FL006   Bridge Improvement              $17,288,000    Pub. L. No. 101-164              $640    Completed                  $640
        Demo: Blount Island                            (1989)                                   with excess
        (Florida)                                                                               funds
FL018   Sarasota: To construct a         $2,341,029    Pub. L. No. 102-240          $517,122    Completed                    $0
        bridge interchange at U.S.                     (1991) Section 1106                      with excess
        301 and University                             (b)42                                    funds
        Parkway

FL022   Brevard County: Design             $156,069    Pub. L. No. 102-240           $12,232    Completed                    $0
        and engineer                                   (1991) Section 1106                      with excess
        improvements for SR-3                          (a)55                                    funds
        between SR 520 and SR
        528

FL037   Purchase and install I-275         $768,825    Pub. L. No. 105-178             $7,955   Completed                    $0
        traffic management                             (1998) Section 1602                      with excess
        system in Pinellas                             Number 518                               funds
        County, Florida

FL044   Construct County Road            $6,150,596    Pub. L. No. 105-178          $223,686    Completed                    $0
        470 interchange with                           (1998) Section 1602                      with excess
        Florida Turnpike                               Number 706                               funds
FL049   Widen Gunn Highway               $1,537,649    Pub. L. No. 105-178          $170,967    Completed                    $0
        between Erlich Road and                        (1998) Section 1602                      with excess
        South Mobley Road in                           Number 888                               funds
        Hillsborough County




        Exhibit B. 19 Projects With Unneeded Funds That Are Available For
        Redirection
                                                                                                                  16



                                                                                                                   Amount
                                                         Public Law, Section,                       Reason for    Eligible for
Demo                                                     Related Report, and     Total Amount       Releasing    Section 1603,
  ID      Project Description        Total Allocated      Date of Enactment       to Release          Funds      SAFETEA-LU
LA008   Southeast Baton Rouge             $4,148,559   Pub. L. No. 100-017              $11,625   Completed             $23,229
        Reconstruct Siegen Lane                        (1987) Section 149                         with excess
                                                       (A)(88)                                    funds
                                                       Pub. L. No. 100-017             $11,604
                                                       (1987) Section 149
                                                       (A)(88)
LA014   Bossier City: study grade          $156,069    Pub. L. No. 102-240             $48,413    Completed                 $0
        separations along Kansas                       (1991) 1106 A(74)                          with excess
        City railroad along U.S.                                                                  funds
        71
LA020   New Orleans, I-10/I-610         $10,000,000    Pub. L. No. 103-331              $2,925    Completed                 $0
        intersection                                   (1994)                                     with excess
                                                                                                  funds
LA021   Replace Ferry in                 $1,652,973    Pub. L. No. 105-178            $189,497    Completed                 $0
        Plaquemine Parish                              (1998) Section 1602                        with excess
                                                       Number 21                                  funds
LA035   Florida Avenue                     $205,020    Pub. L. No. 105-178            $205,020    Project will              $0
        Expressway                                     (1998) Section 1602                        not proceed
        St. Bernard/Orleans                            Numbers 750 and 1589                       due to
        parishes.                                                                                 hurricane
                                                                                                  damage
LA049   Tchopitoulas Corridor,           $4,612,948    Pub. L. No. 105-178          $2,988,206    Completed                 $0
        New Orleans                                    (1998) Section 1602                        with excess
                                                       Number 1597                                funds
MS010   Franklin/Lincoln Counties:       $9,971,328    Pub. L. No. 102-240            $847,586    Completed                 $0
        Improvements on                                (1991) Section 1106 (A)                    with excess
        Highway 84                                     24                                         funds
TX059   Conduct feasibility study          $192,206    Pub. L. No. 105-178                $448    Completed                 $0
        on upgrading SH 16 in                          (1998) Section 1602                        with excess
        South Texas.                                   Number 694                                 funds
TX083   Construct extension of           $1,383,885    Pub. L. No. 105-178             $15,630    Completed                 $0
        West Austin Street (FM                         (1998) Section 1602                        with excess
        2609) between Old Tyler                        Number 1467                                funds
        Road and Loop 224,
        Nacogdoches

Total                                  $118,071,939                                $10,684,135                         $189,518




        Exhibit B. 19 Projects With Unneeded Funds That Are Available For
        Redirection
                                                                                                                17



EXHIBIT C. HIGHWAY EARMARK TRENDS

Recent Trends in Highway Earmarks
During the last 25 years, the number and total amounts of congressional earmarks
for highway projects designated in the last five transportation reauthorization bills
have increased. Table 2 below shows this growth, as well as the change in the
percentage of earmarked funds relative to Federal-aid highway spending provided
in the last five reauthorization bills.

        Table 2. Number and Total Amount of Earmarks and Their
         Percentage of Federal-Aid Highway Program, by Recent
                       Reauthorizing Legislation

                                                                               Total Amount          Percent of
                                                           Number of                 of                Total
                                                         Demonstration         Demonstration          Federal-
                                     Authorization         and High              and High               Aid
         Reauthorizing                  Period              Priority              Priority            Highway
           Legislation                (in years)           Projects*             Projects*            Program
    Surface Transportation                 4                  10                 $410,200,000            0.9
    Assistance Act of 1982
    (STAA)
    Surface Transportation                   5                  154             $1,418,510,130           2.1
    and Uniform Relocation
    Assistance Act of 1987
    (STURAA)
    Intermodal Surface                       6                  538             $6,228,640,000           5.2
    Transportation Efficiency
    Act of 1991 (ISTEA)

    Transportation Equity Act                6                 1,850            $9,359,850,000           5.5
    for the 21st Century
    (TEA-21), 1998
    Safe, Accountable,                       6                 5,557          $17,387,236,000            8.7
    Flexible, Efficient
    Transportation Equity Act:
    A Legacy for Users
    (SAFETEA-LU), 2005
*
    The earmarked projects included in the table are those to which FHWA has assigned a Demo ID number and,
    consequently, can be tracked in FMIS. These projects are identified in the legislation as follows: STAA, Section
    131; STURAA, Section 149; ISTEA, Sections 1103 through 1108; TEA-21, Section 1601; and SAFETEA-LU,
    Sections 1702 and 1934. The dollars have not been adjusted for inflation.




Exhibit C. Highway Earmark Trends
                                                                    18



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Kurt W. Hyde                          Assistant Inspector General for
                                        Surface and Maritime Programs

  Tom Yatsco                            Program Director

  Michael Ralph                         Program Director

  Joan Becker                           Project Manager

  Nancy Benco                           Senior Analyst

  Scott Williams                        Analyst

  Harriet Lambert                       Writer-Editor




Exhibit D. Major Contributors to this Report
                        APPENDIX. MANAGEMENT COMMENTS                                                            19

    U.S. Deportment
    of Transportation
    Federal Highway
                                                                Memorandum
    Administration



Subject:   INFORMATION: Federal Highway Administration                                    Date    February 9, 2007
           Response to Office of Inspector General (OIG) Draft
           ~ e ~ b r"Opportunities
                      t,           t o ~ r e Up
                                             e Unneeded FHWA
           ~ u n d for
                   s u s e in

From:      J. Richard Capka                                                               Reply to
           Administrator                                                                  Attn. of:   HIPA- 10
           Calvin L. Scovel 111
           Inspector General (JA-40)

           Thank you for the opportunity to review and comment on the OIG Draft Report, "Opportunities
           to Free Up Unneeded FHWA Funds for Use in Hurricane Recovery Efforts." This audit focuses
           on unobligated and unexpended balances for earmarked transportation projects in the five Gulf
           States that were designated in legislation. This funding was authorized by Congress for specific
           highway projects or activities in authorization acts, as well as in annual transportation
           appropriation acts. In addition, the legislation usually provides that the funds are available until
           expended.

           Since these projects have been designated in legislation for a specific project or activity, and the
           funds authorized for these projects cannot be utilized for any other purpose unless the
           authorizing legislation is amended, there are balances of unobligated andlor unexpended
           obligations that remain after they are no longer needed. There is currently no enacted statute that
           directs the Secretary to provide this information to Congress. However, as a matter of comity,
           the information is provided upon request from Congress.

           Taking into consideration the points mentioned above, the following are o w comments and
           planned actions on the specific audit report recommendations.

           Recommendation l(a): "Coordinate with the five Gulf State departments of transportation to
           promptly identify how the earmarked funds in the 19 projects we identified in our audit could
           best be redirected for use on hurricane recovery efforts."

           Response: The FHWA concurs in this recommendation. The target date for completion is
           February 28,2007.




                        Appendix. Management Comments
                                                                                                  20




Recommendation l(b): "FHWA should also formally alert Congress that $10.7 million in
earmarked funds are available for redirection to hurricane recovery efforts within these same
states. If necessary, FHWA should also coordinate with Congress regarding the legislative
requirements of each earmark in order to identify the best method for redirecting these funds."

Response: The FHWA believes that we should await the completion of our coordination with
the five Gulf States before determining our next step.

Recommendation 2: "Promptly issue guidance on Section 1603 of SAFETEA-LU to allow the
states to redirect, without congressional action, certain eligible, unneeded highway earmarked
h d s to other transportation projects in their states."

Response: The FHWA concurs in this recommendation. The target date for completion is
February 28,2007.

Recommendation 3: "Continue to regularly compile a list of earmarked highway hnds that
states no longer need and transmit that list to Congress for legislative consideration."

Response: The FHWA agrees that it should monitor the use of earmarked highway funds to
identify knds that States no longer need. The FHWA will alert Congress periodically that
certain funds are not needed for their statutorily intended purpose.

The efforts of the OIG auditors are greatly appreciated. If you have any questions or comments
regarding this response, please contact Mr. Joseph Taylor, at (202) 366-1654.




         Appendix. Management Comments
                                                                               21


The following page contains a textual version of the graph found in this document.
This page was not in the original document but has been added here to assist
screen readers.
                                                                                  22




Figure 1. Average Amount per Earmark Declines as Total Number of
Earmarks Increases, by Authorizing Legislation

Authorizing                  Average Amount             Number of
Legislation                  Per Earmark                Demonstration and
                                                        High Priority Projects
STAA (1983)                            $41,020,000                           10
STURAA (1987)                           $9,211,105                         154
ISTEA (1991)                           $11,577,398                         538
TEA-21 (1998)                           $5,059,378                       1,850
SAFETEA-LU (2005)                       $3,128,889                       5,557
  Source: Authorizing legislation and FHWA documents.
